                UNITED STATES GOVERNMENT
                National Labor Relations Board
                Office of Inspector General

Memorandum


December 24, 2003

To:      Barry J. Kearney
         Associate General Counsel, Division of Advice

         Richard A. Siegel
         Associate General Counsel, Division of Operations-Management

From:    Jane E. Altenhofen
         Inspector General

Subject: Inspection Report No. OIG-INS-29-04-02: Section 10(j) Filings

         We initiated this inspection to analyze trends at the National Labor Relations Board
(NLRB) in filing for temporary relief under Section 10(j) of the National Labor Relations Act,
specifically whether a recent General Counsel memorandum achieved the purpose of assuring
that all cases warranting interim relief receive full consideration. Injunctive relief would result
in a district court ordering the respondent to do something or prohibit some act until the case is
decided by the Board. Examples include reinstating an employee to prevent irreparable
destruction to an organizational campaign or requiring unions to cease mass picketing activity
that restrains or coerces employees from exercising their rights to refrain from participating in a
strike.

        The Regional Offices submitted, on average, 92 cases annually in Fiscal Years (FY) 2001
through 2003. Within these years, there was a decrease of 12 cases from FY 2001 to FY 2002,
and then a slight increase of 3 cases from FY 2002 to FY 2003. The General Counsel submitted
a smaller percentage of Regional Office requests for Section 10(j) relief to the Board in FY 2003
than in FY 2001. Further, the Board denied a larger percentage of the General Counsel’s
requests in FY 2003 than in FY 2001. Between FY 2001 and FY 2003, very few of the Board's
requests for injunctive relief were denied by district courts.

       The Chairman noted that when analyzing trends it is important to keep in mind that
NLRB cases are highly differentiated and each case must be evaluated on its own merits.
Further, that the number of Section 10(j) submissions may vary from year to year does not
necessarily mean that the standards, or the application of those standards, have changed.
SCOPE
      We interviewed officials in the Division of Operations-Management (Operations-
Management) and the Division of Advice and reviewed General Counsel and Operations-
Management memoranda for the years 1966 through 2003. We reviewed information collected
and compiled by Operations-Management and the Division of Advice, Injunction Litigation
Branch (ILB) that is used by each office to manage and monitor Section 10(j) activity.

        We conducted this review in July through December 2003. The review was conducted in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.


BACKGROUND

        Section 10(j) of the National Labor Relations Act (Act) authorizes the Board to seek
injunctive relief in U.S. District Courts in situations where, due to the passage of time, the
normal adjudicative processes of the Board will likely be inadequate to effectively remedy the
alleged violations. Such injunctive relief may be sought as soon as an unfair labor practice
complaint is issued by the General Counsel and remains in effect until the unfair labor practice
case is finally decided by the Board. To justify Section 10(j) relief, the Board must demonstrate
how the alleged violations threaten statutory rights and the public interest while the parties await
a final Board order.

        Board agents must be aware of the types of situations where such relief may be
appropriate, the requirement of the investigative process in those situations, and the internal
procedures to be followed in such cases. Employer conduct that could be subject to Section
10(j) actions include interference with organizational campaigns, subcontracting or other
changes to avoid bargaining obligations, or dissipation of assets to preclude the remedy of
backpay. Union violations that could result in Section 10(j) actions include mass picketing and
violence, strike activity without notices or waiting periods required by the Act, and union
coercion to achieve unlawful objectives.

       The General Counsel's policies for administering the Section 10(j) program have been
consistent for nearly 30 years. Over this time, the General Counsel and Operations-Management
issued memoranda to seek Section 10(j) relief when appropriate, provide instructions for the
Regions to report on Section 10(j) activity, and to report on the use of Section 10(j). Initiatives
to promote the program included the development of the Section 10(j) Manual and providing
guidance on the ILB Bulletin Board regarding the types of cases that the General Counsel
believes warrant Section 10(j) relief. This guidance includes posting the descriptions of all cases
for which the General Counsel sought Section 10(j) relief.




PROCESS

                                                 2
        Agency policy states that the Regional Offices should evaluate every new charge to
determine whether Section 10(j) relief may be appropriate. In some instances Regional Office
submissions to ILB are mandatory. Either the charging party or the Board agent can identify
potential Section 10(j) cases. As soon as it appears that Section 10(j) relief may be considered,
the Region should immediately notify the parties to submit evidence and argument relevant to
the Section 10(j) consideration. After the Region completes its Section 10(j) investigation, it
should evaluate whether Section 10(j) proceedings are appropriate. The Region's evaluation
generally should be made at the same time that it determines whether to issue a complaint on the
allegations in the charge.

         When the Regional Office has decided that injunctive relief is appropriate, it submits a
recommendation to ILB in favor of seeking Section 10(j) relief. The submission should be in the
form of a memorandum that will be sufficient, in terms of form, comprehensiveness, and quality,
to transmit to the Board if the General Counsel concurs with the recommendation. The
memorandum should set forth the fact-findings to be relied on, the legal analysis establishing the
violation, the reasons why Section 10(j) relief is considered necessary, and the specific interim
relief to be requested.

        ILB reviews the memorandum prepared by the Regional Office and, if appropriate,
recommends to the General Counsel that injunctive relief should be pursued. A memorandum of
their decision and the memorandum prepared by the Regional Office are forwarded to the
General Counsel for his consideration. If the General Counsel determines that injunctive relief is
appropriate, the General Counsel transmits to the Board the memorandum prepared by the
Region with a covering memorandum prepared by ILB indicating concurrence.

        The Solicitor reviews the memoranda prepared by the Regional Office and ILB and
writes a memorandum for the Board recommending whether to seek injunctive relief. The full
Board then votes on whether to seek an injunction in a district court. If Section 10(j) relief is
authorized, the Regional Office files the petition.


SECTION 10(j) ACTIVITY

Regional Office Submissions

         In General Counsel Memorandum 02-07, “Utilization of Section 10(j) Proceedings,”
dated August 9, 2002, the General Counsel noted a recent decline in the number of cases
identified by Regional Offices and identified steps to assure that all cases warranting interim
relief receive full consideration. The number of cases submitted by the Regional Offices
remained relatively unchanged after the memorandum was issued.

       The Regional Offices submitted, on average, 92 cases annually in FY 2001 through 2003.
Within these years, there was a decrease of 12 cases from FY 2001 to FY 2002, and then a slight
increase of 3 cases from FY 2002 to FY 2003. The percentage of Section 10(j) submissions from
the Regional Offices submitted to the Board, however, decreased from 46 percent in FY 2001 to

                                                 3
28 and 32 percent in FYs 2002 and 2003. In FY 2003, 59 cases were not submitted to the Board.
Of these, 46 percent were not submitted for procedural reasons such as the case settled, was
mooted by a Board decision, the submission was premature, or because the factual situation
changed. The other 54 percent were not submitted for substantive reasons such as the problems
with merits of the case or because ILB determined that pursuing Section 10(j) relief was not just
and proper.

       The decrease in the percentage of Section 10(j) requests submitted to the Board was
primarily due to a significant increase in ILB determinations that pursuit of Section 10(j) relief
was not appropriate because an injunction was not just and proper. In FY 2001, 25 percent of
Regional Office requests that were not submitted to the Board were for just and proper reasons.
This increased to 47 percent in FY 2003.

        In response to Regional Offices submitting fewer requests for Section 10(j) relief to ILB,
an Assistant General Counsel in Operations-Management was assigned to review the submission
level for six Regions with the lowest number of submissions. A report with recommendations
for improved performance was issued to the General Counsel in October 2003.

        ILB stated that the decline in the number of Regional Office requests to the Board to be
the result of the strength of individual cases as viewed by the General Counsel. Management
also stated that over the years, ILB has developed expertise in analyzing Section 10(j) requests
and has consistently applied the same criteria in its screening process.

        The General Counsel stated that a conclusion would best reflect the outcome of Section
10(j) cases if it was based on the total cases submitted by Regional Offices, and not the number
of cases that were denied by the General Counsel. Our conclusion was based on cases denied by
the General Counsel because of antithetical activity showing the percentage of cases being
submitted to the Board declining while Regional Office requests were also declining.

                                 Regional Office Requests
                                                FY 2001              FY 2002     FY 2003
                                              No. Percent           No. Percent No. Percent
Regional Office requests received by ILB         99                   87          90

Total ILB dispositions                                98      100      92       100     87      100
Cases not submitted to the Board                      53       54      66        72     59       68
Cases submitted to the Board                          45       46      26        28     28       32

Board Authorized Cases

         Even though the General Counsel submitted substantially fewer requests for Section 10(j)
relief to the Board in FY 2003 than in FY 2001, the Board denied a larger percentage of the
General Counsel’s requests in FY 2003 than in FY 2001 or FY 2002. The Board denied no

                                                 4
General Counsel requests in either FY 2001 or FY 2002, but denied 3 of 28 requests (11 percent)
in FY 2003.

       Between FY 2001 and FY 2003, very few of the Board's requests for injunctive relief
were denied by district courts. No requests for injunctions were denied in FY 2003.

                             Board Authorized Section 10(j) Action
                                                 FY 2001          FY 2002    FY 2003
                                               No. Percent No. Percent No. Percent
Board authorized Section 10(j) action             43               16        17
Injunctions granted by district court             10        23      5     31  9      53
Case settled                                      25        58      3     19  3      18
Cases withdrawn prior to court decision             3        7      5     31  2      12
Cases pending in district court                     0        0      0      0  3      18
   Subtotal                                          38       88      13        81    17      100
Injunctions denied by district court                  5       12       3        19     0        0

∗   Figures do not match cases submitted to the Board because some cases were withdrawn by
    the General Counsel and others were acted on in the subsequent year.


GOALS

        The Agency’s Annual Performance Report required by the Government Performance and
Results Act has one two-part performance measure related to the processing of Section 10(j)
activity. The 2003 measure is to close all cases seeking Section 10(j) relief where there has been
Board authorization within a median of 25 days of the receipt from Regional Offices, excluding
deferral time. Additionally, 90 percent of these cases will be closed within 30 days by FY 2007,
with an interim goal of 87 percent in FY 2003.

       The first part of the goal was changed in FY 2002 from a calendar day to a median day
measure. The FY 2003 plan does not identify the reason the performance goal was changed.
Management stated that the median day measurement is consistent with other Agency time
goals. As stated in previous OIG documents, median days measures are most appropriately used
when data is skewed and you want to minimize this effect. NLRB data is generally right
skewed; a median hides the extreme times that it takes to accomplish some actions and,
therefore, is not the best measure for full disclosure.

        The measure counts from the date the Regional Office request is received in ILB to the
date of the ILB memorandum to the Board requesting Section 10(j) authorization. The measure
states that it includes requests that were authorized by the Board. The measure, actually,
includes all cases for which the ILB recommended pursuing Section 10(j) actions. These include
cases declined by the Board, those withdrawn by the General Counsel, and those mooted by a
Board decision.
                                                5
        The performance measure only captures the time the case is in ILB and excludes
significant time in other offices. The time to dispose of the case in the Regional Office, up to 7
weeks, is not included. Any time that ILB is waiting for the Regional Office to provide
additional information is also excluded. In FY 2003, cases had an average deferral time of 15
days and one case was deferred for 144 days. Also, the time required for Board action is
excluded. The Board took an average of 70 days to authorize or deny authority to the Section
10(j) requests in FY 2003. We have commented in prior documents that goals would be more
useful if they gave a picture of the overall time taken for the Agency to accomplish results.

        The General Counsel stated that our use of an average number of days distorts the picture
due to the processing times of three cases. The three cases were at the Board for 194 days, 189
days, and 98 days. If these three cases were not included in our calculation, the average number
of days before the Board would be 49, rather than 70 days. This illustrates how medians hide
extreme times, another comment that we have made in prior documents.

        The Agency did not meet either part of the performance goal in FY 2002 or FY 2003.
The FY 2002 Annual Performance Report said that several factors contributed to not meeting the
goal, including the development of the Section 10(j) policy with the change in Agency
leadership.

                                    Section 10(j) Performance Goals


Measure                                      FY 2002                          FY 2003
                                                                                        Actual
                                      Plan           Actual            Plan             (Draft)
Close all Advice cases seeking
Section 10(j) injunctive relief
where there has been Board
authorization within a median                                       100% closed 100% closed
of 25 days of receipt from          60% closed 46.2% closed        w/in a median w/in a median
Regional Offices                       w/in 25 w/in 25 days           of 25 days  of 30.5 days
                                          days
Close all Advice cases seeking
Section 10(j) injunctive relief
where there has been Board
authorization within 30 days of     84% closed 53.9% closed          87% closed       50% closed
receipt from Regional Offices          w/in 30 w/in 30 days         w/in 30 days     w/in 30 days
                                          days




                                                 6
